HHS/OIG, Audit -"Medicare Graduate Medical Education Payments to New York-Presbyterian Hospital,"(A-02-02-01011)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Medicare Graduate Medical Education Payments to New York-Presbyterian Hospital," (A-02-02-01011)
April 25, 2005
Complete
Text of Report is available in PDF format (1.49 mb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether New York-Presbyterian Hospital (the hospital) complied with
Federal requirements in calculating the resident full-time equivalents (FTEs) used to claim Medicare
direct graduate medical education (GME) and indirect graduate medical education (IME) payments for
calendar year 1999.  The hospital did not fully comply with Federal requirements and therefore
overstated its GME and IME FTEs on the 1999 Medicare cost report.  The hospital overstated its
claim by a total of $8,411,409 for 1999, 2000 and 2001.  We recommended that the hospital (1)
reimburse Medicare $8,411,409 for overclaimed GME and IME (2) make adjustments to reduce the FTE counts
reported on its 1999 Medicare cost report (3) strengthen its procedures to ensure that future residents
FTE counts and per resident amounts for residency specialties are calculated in accordance with Medicare
requirements and (4) determine whether the errors in our review also occurred in prior and subsequent
Medicare cost reports and coordinate with the Medicare fiscal intermediary to make any necessary financial
adjustments.  The hospital disagreed with our findings on incorrect application of the initial
residency period weight factor and excludable IME time for non-prospective-payment system units and
research.  The hospital stated that it had implemented our recommendation on strengthening procedures
but disagreed with our recommendation to identify errors in other periods.